NO. 19-508
IN THE

Supreme Court of the United States
AMG CAPITAL MANAGEMENT, LLC, ET AL.,

v.
FEDERAL TRADE COMMISSION,

Petitioners,

Respondent.

PROOF OF SERVICE
I, Rita L. Hemenway of Bateman & Slade, Inc., hereby declare
that on this seventh day of December 2020, I have served three (3) true
copies of the Brief For National Consumer Law Center, UC Berkeley
Center for Consumer Law and Economic Justice, Center for Consumer
Law and Education, Housing Clinic of Jerome N. Frank Legal Services
Organization at Yale Law School, and Professor Craig Cowie as Amici
Curiae in Support of Federal Trade Commission by priority mail,
postage prepaid, addressed as follows:
Attorneys for Petitioners
Neal Kumar Katyal
Hogan Lovells US LLP
555 Thirteenth St., N.W.
Washington, DC 20004
202-637-5528
neal.katyal@hoganlovells.com
Party name: Credit Bureau Center, LLC, et al.
Jeffrey Alan Lamken
MoloLamken LLP
The Watergate, Suite 660
600 New Hampshire Ave., N.W.
Washington, DC 20037
202-556-2010
jlamken@mololamken.com
Party name: AMG Capital Management, LLC, et al.

Attorneys for Respondent
Alden Francis Abbott
U.S. Federal Trade Commission
600 Pennsylvania Avenue, NW
Washington, DC 20580
202-326-2505
aabbott@ftc.gov
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
202-514-2217
SupremeCtBriefs@USDOJ.gov
Party name: Federal Trade Commission
Signed under the pains and penalties of perjury,

Rita L. Hemenway
Rita L. Hemenway
NOTARIZED BY:

George D. Bateman
George D. Bateman
My Commission Expires: May 30, 2025

2

